No.19-320

HAROLD WADE AND LORRAINE WADE,
Petitioners,
v.
KREISLER LAW, P.C.,
Respondent.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced Reply Brief of
Petitioners, as indicated by the word count feature of MS Word and including footnotes
but excluding those parts enumerated for exclusion under the rules, contains 814 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 14th day of February, 2020.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 14
that the foregoing certificate is true and exact to

